Jennifer Parrish-Taylor, Special Assistant to the Chief Compliance Officer
Tonga Country Desk
  Peace Corps
  Office of Inspector General




                 Map of Tonga
            Source: The World Factbook




                Flag of Tonga




Final Audit Report: Peace Corps/Tonga
              IG-12-08-A

                                         September 2012
                                    EXECUTIVE SUMMARY
Misappropriation of agency funds. In October 2011, the director of management and
operations (DMO) of Peace Corps/Tonga (hereafter, “the post”) contacted the Office of the Chief
Financial Officer (OCFO) concerning suspicion that the cashier may be using money from the
post’s bank account for personal use. OCFO communicated this concern to the Office of the
Inspector General (OIG). The country director (CD) and the DMO took immediate action, in
consultation with OCFO and OIG, and identified approximately $7,350 in stolen funds. As a
result, the CD terminated the cashier’s employment and recovered the stolen funds.

OIG Audit. The fiscal year (FY) 2012 OIG annual plan included an audit of Peace Corps/Tonga.
Following the misappropriation of funds, OIG announced and conducted the audit of Peace
Corps/Tonga with additional testing of imprest fund management, bills of collection (BOCs), and
disbursements. The auditor conducted the site visit from February 6 to February 29, 2012.

At the time of the audit, the post had a staff of 17 full-time employees: two U.S. direct hires, one
U.S. personal services contractor, 12 local hire personal services contractors and two foreign
service nationals supporting 21 Volunteers. The post’s FY 2011 budget was approximately
$1.15 million plus an average of $390,000 in indirect and other costs incurred by the Inter-
America Pacific (IAP) region per overseas post.

Results. The post’s financial and administrative operations required improvement to ensure
adequate controls are in place and operating effectively. In reviewing the management of the
imprest fund, it was determined that the cashier had potentially misappropriated a total of
approximately U.S. $600 and 32,000 Tongan pa‘anga (T$) ($20,000 U.S. dollar equivalent
[USDE]) by using funds withdrawn from the post’s bank account for personal use, voiding bills
of collection for vehicle sales and Volunteer allowances, and misappropriating the proceeds of
vehicle sales. The following control weaknesses permitted the irregularities to remain undetected
for more than a year:

    •   The post had not obtained adequate support during imprest fund reconciliations.

    •   The post did not monitor bills of collection, did not enforce separation of duties, did not
        retain support for BOCs, and voided collections without adequate support.

    •   The post did not ensure proper separation of duties over the disposal of property and did
        not enforce oversight and reconciliation of proceeds of sale with BOCs and receipts.

In addition, we identified further areas of improvement in the value added tax (VAT),
disbursements, and property management.

Management concurred with all 10 recommendations. Management took timely action to
remediate our findings. As a result, we closed 4 recommendations. The remaining 6
recommendations remain open pending documentation described in Appendixes C and D.



Final Audit Report: Peace Corps/Tonga                                                                  i
                                                     TABLE OF CONTENTS

E XECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND ..................................................................................................................................1

AUDIT R ESULTS ...............................................................................................................................1
           MISAPPROPRIATION OF AGENCY FUNDS ..........................................................................................................1

           BILLS OF COLLECTION .....................................................................................................................................5

           VALUE ADDED TAX .........................................................................................................................................5

           DISBURSEMENTS ..............................................................................................................................................6

           TRAVEL AND PURCHASE CARD PAYMENTS ......................................................................................................7

           PERSONAL PROPERTY MANAGEMENT ..............................................................................................................8


O THER AREAS OF C ONCERN .........................................................................................................10

Q UESTIONED C OSTS AND F UNDS TO BE P UT TO BETTER USE .....................................................11

L IST OF R ECOMMENDATIONS .......................................................................................................12

APPENDIX A: O BJ ECTIVE , SCOPE , AND M ETHODOLOGY.............................................................13

APPENDIX B: L IST OF ACRONYMS ................................................................................................14

APPENDIX C: M ANAGEMENT ’S R ESPONSE TO THE P RELIMINARY R EPORT ...............................15

APPENDIX D: OIG C OMMENTS.....................................................................................................21

APPENDIX E: AUDIT C OMPLETION AND OIG C ONTACT .............................................................22
                                                BACKGROUND
OIG conducted an audit of Peace Corps/Tonga from February 6 to February 29, 2012. We
previously performed an audit of Peace Corps/Tonga in 2004 and issued our report (IG-05-
06AE) in March 2005.

The post was established in 1967. During our review 19 Volunteers were working in the
education sector. The post’s FY 2011 budget was approximately $1.15 million. The IAP region
incurred approximately $8.61 million to support operations at 22 overseas posts, at an average of
$390,000 per post. 1

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. We reviewed whether the post’s
internal control was in place and operating effectively. Our audit included additional testing
related to imprest fund management to identify control weaknesses that may have permitted the
misappropriation of agency funds. Appendix A provides a full description of our audit objective,
scope, and methodology.


                                              AUDIT RESULTS
MISAPPROPRIATION OF AGENCY FUNDS

During the audit OIG determined that the post’s cashier had potentially misappropriated a total
of approximately U.S. $600 and T$32,000 ($20,000 USDE) by:

       •   Using amounts withdrawn from the cashier pass-through account for personal use;
       •   Voiding BOCs for sales of vehicles and Volunteer allowances; and
       •   Misappropriating proceeds of vehicle sales.

The cashier inappropriately used Peace Corps funds for personal gain. The DMO and the CD
were not conducting complete imprest fund reconciliations, permitting the loss to continue
undetected for more than a year.

After receiving additional training in imprest fund management, the DMO was able to identify
the loss and take appropriate action with support from regional management and the OCFO
staff.

Post’s Steps to Identify Cash Loss. The IAP regional management and OCFO provided training
to cashiers and cashier supervisors in October 2011. This training proved valuable in identifying
the misappropriation of Peace Corps funds.


1
    Regional costs include U.S. direct hire salaries and benefits, readjustment allowances, and indirect costs.


Final Audit Report: Peace Corps/Tonga                                                                             1
During the October 2011 monthly imprest fund reconciliation, the DMO suspected that the
T$6,670 ($4,100 USDE) reported as un-cashed replenishment electronic funds transfers (EFT)
were not in the possession of the cashier. The DMO immediately contacted OCFO and reported
his suspicion that the cashier may have withdrawn funds from the USDO bank account, used
them for personal reasons, and waited to deposit the money in the cashier's safe for several days
after the withdrawal date. This allowed the cashier to use government funds inappropriately,
create an unauthorized loan from the government, and eventually to misappropriate cash. On
November 2, 2011, the OCFO informed OIG of the possible misuse of Peace Corps funds. OIG
provided advice and monitored management actions throughout this process. The following
actions were taken by the post, region, and OFCO regarding the cash loss.

OCFO obtained the withdrawal dates from the USDO bank account for the replenishment checks
issued to the post for the prior 24 months. The OCFO cashier liaison compared the bank’s
withdrawal dates with the dates the deposits were recorded in the post’s imprest fund by the
cashier. Management prepared a schedule of all cash withdrawals from the USDO account and
actual replenishment transactions into the Peace Corps imprest funds within the last 12 months.

Based on the review of this schedule it appeared that the cashier initiated these unauthorized
withdrawals in May 2011. There were several such instances in which the cashier delayed
replenishment of the imprest funds up to 79 days after withdrawing the funds.

The CD and the DMO conducted a surprise cash count on November 8, 2011, and determined
that U.S. $600 and T$10,900 ($6,750 USDE) reported as un-cashed replenishment EFT were
missing from the imprest fund. The CD and the DMO accompanied the cashier to the bank to
verify whether the cashier had already withdrawn the funds. The bank provided documentation
showing that the funds were withdrawn, along with the withdrawal dates the funds had been
withdrawn.

On November 30, 2011, the agency terminated the cashier’s employment contract effective
December 31, 2011, and recovered the unauthorized withdrawals from salary and leave
allowance due the cashier.

OIG Review of Controls. We reviewed both the agency’s and the post’s processes and controls
to determine whether controls were in place and operating effectively to prevent and detect the
misappropriation of funds. We determined that several key controls were not consistently
practiced by the post.

Specifically, prior to the training received in October 2011, the DMO was not informed that the
“balance on hand” line represented the balance in the USDO bank account and that the DMO
was required to obtain confirmation of the balance on hand from the bank. The misappropriation
could have been detected if the DMO and/or the certifying official had obtained explanations
when the cashier made partial payments for small imprest fund vouchers due to shortages of
funds.

In addition, we identified areas where OCFO could strengthen its monitoring processes to detect
cash losses and possible thefts in a timely manner. The financial system included the issue dates



Final Audit Report: Peace Corps/Tonga                                                               2
of replenishment checks in the “List of Items On Hand and of Transmittals in Transit” report
printed when monthly cash counts are conducted. During our review of the post’s cash
reconciliation, we noted that at the beginning of November 2011 there were seven cashier
replenishment checks amounting to T$10,900 ($6,750 USDE) outstanding on the report. These
checks were issued by OCFO between September 21, 2011, and November 2, 2011. The cashier
liaison in the OCFO did not follow-up on replenishment checks remaining outstanding over 30
days.

    We recommend:

    1. That the director of management and operations review the aging of all open items in the
       “List of Items On Hand and of Transmittals in Transit” report prior to performing the
       monthly cash count and obtain explanation and support for all items remaining open for
       over 30 days.

    2. That the director of management and operations confirm the balance of outstanding cash
       replenishment checks in the cash reconciliation statement report by verifying that the
       physical checks are in the cashier’s safe or by obtaining confirmation from the bank to
       verify that the balance in the bank account equals the total of all in-transit items in the
       “List of Items On Hand and of Transmittals in Transit” report.

Lack of monitoring and follow-up of overdue bills of collection and lack of adequate controls
over voided bills of collection allowed the cashier to potentially misappropriate proceeds from
the sale of a Peace Corps vehicle and unpaid volunteer allowances.

The Peace Corps Manual section (MS) 777 and the Overseas Financial Management Handbook
(OFMH) chapter 3 detail the process for billing and collections for the agency. However, these
policies and procedures did not provide sufficient guidance over processing voids of BOCs and
monitoring cash receipts.

In June 2009, the cashier voided a BOC issued in February 2008 for approximately T$12,650
($7,100 USDE), representing the sale of a vehicle. The description field on the voided BOC
stated that the BOC was voided because it was a duplicate. An extensive review of cash receipt
transactions with the OCFO failed to locate another BOC recording the sale.

Based on our analysis and discussion with the OCFO it appears the cashier deposited
approximately $7,100 USDE into the USDO account on or about March 6, 2008. However, the
cashier did not process the corresponding collection entry for this transaction in the FORPost
system. The cashier voided the BOC citing a duplicate entry and the then DMO later authorized
the void on June 30, 2009. By depositing the funds and canceling the corresponding collection
entry, the cashier’s accountability (the amount of cash on hand with the cashier) decreased and
she was able to withdraw the same amount from the cashier’s safe without detection.

We also noted one BOC for approximately T$3,600 ($2,300 USDE) related to Volunteer
allowances that was voided in March 2009. This amount represented the collection of monthly
living allowance payments for four Volunteers who left the post in February 2009. Similar to the



Final Audit Report: Peace Corps/Tonga                                                                3
vehicle sale noted above, the amount was deposited into the USDO account. However, there
were no collections recorded for these amounts. The administrative staff at the post could not
provide an explanation or support for the voided transaction.

We believe these funds were misappropriated, in part, because of a lack of due diligence by the
DMO authorizing the void, and because of control weaknesses in systems and processes. The
former DMO did not (i) obtain adequate support prior to voiding the BOC to verify that the
voided BOC did in fact represent duplicate transactions and (ii) verify that proper system-
generated receipts were generated for the BOC related to the sale of a vehicle.

Based on our discussions, in June 2012, the OCFO issued revised guidance for approving voided
BOC by the DMOs.

    We recommend:

    3. That prior to authorizing any voided bills of collection the director of management and
       operations obtain adequate support prior to voiding the bill of collection to verify that the
       voided bill of collection does in fact represent duplicate transactions.

The post did not ensure adequate controls over the sale and disposal of Peace Corps vehicles,
which may have resulted in the cashier misappropriating the proceeds.

The post auctioned a vehicle in 2005 for T$5,000 ($3,000 USDE). At that time, the Peace Corps
did not have the capability to enter the initial bills of collection in FORPost. However, it did
maintain a file of the collections. We reviewed the collections recorded in FORPost for 2005 and
could not identify a transaction for the receipt of T$5,000 in the system. We confirmed the
results of our analysis with OCFO.

Based on the review of disposal of asset transactions for other fiscal years (FY 2009 to FY 2012)
we noted that the post did not obtain adequate details from the bidders while conducting the
auction, and then failed to summarize and retain required information. In particular, we identified
the following control weaknesses:

    •   The bids were collected on scrap paper slips and were illegible. The paper slips did not
        include adequate information, such as the name, address, telephone number, and other
        relevant information about the bidder. It was impossible to ascertain if the bidder was a
        third party, or associated with the Peace Corps as an employee, contractor or volunteer.

    •   As the bids were not in a sealed envelope, the bid amounts were clearly visible to the post
        staff and possibly other potential bidders. There is no record of how and when the bids
        were collected or if the bid documents were adequately safeguarded to prevent bid
        rigging.

    •   In several instances, the post did not prepare a summary of bids received to demonstrate
        that all the bids were considered and the highest bidder was selected.




Final Audit Report: Peace Corps/Tonga                                                               4
    •    The post did not prepare a reconciliation to verify that a BOC was issued for all accepted
         bids and the property was released to the bidder only after the bidder produced a receipt
         from the cashier.

Since 2008 the Peace Corps revised the Personal Property Management Handbook and OFMH
43 to disallow auctions at post. However, without a U.S. Embassy or third party auction
available, a post may need to obtain authorization to conduct sales. To help prevent fraud, the
post must ensure proper separation of duties, handling of bids, issuance of BOCs, and cash
collection. The Office of Management provides posts with best practices when sales at posts are
necessary.

    We recommend:

    4. That as there is no U.S. Embassy in Tonga, the post follow Peace Corps policies and
       obtain permission from the Office of Management and follow the guidelines it provides
       to ensure adequate controls over the sale process.


BILLS OF COLLECTION

The post did not retain support and implement proper separation of duties over bills of
collection.

The BOC process at the post lacked adequate separation of duties, because the person identifying
the amount owed is also the person creating the BOCs, without independent review. Three
individuals at the post prepare BOCs. The general services assistant is responsible for issuing
BOCs for the personal use of telephones, vehicles and disposal of assets. The administrative
assistant in the finance department is responsible for issuing BOCs for volunteer allowances and
consumption tax refunds. The financial assistant prepares all other BOCs. In addition, all three
staff members maintained their own files supporting the BOCs and did not retain adequate
supporting documents.

    We Recommend:

    5. That the director of management and operations ensure that only the billing officer
       prepare bills of collection and retain adequate supporting documentation.


VALUE ADDED TAX

The post did not have adequate controls over value added tax collections.

OFMH chapter 7.6.4 “VAT Collections” states:

        A. Posts receiving VAT refunds via cashiering




Final Audit Report: Peace Corps/Tonga                                                             5
        It is recognized that VAT BOCs will age and are not usually collectable per the review schedule in 7.2.2 step
        1. Posts should monitor VAT BOCs, nonetheless. Any VAT BOCs over 2 years old should be discussed with
        the local Government, and Cashier-voided, if appropriate. (If voided, include a reference to this guidance and
        Government’s response in the void description.)

During our review we noted that there is no evidence the financial assistant or the DMO
reviewed the VAT refund claim prior to submitting it to the tax authorities. Further, we noted the
following issues:

    •     The administrative assistant voided several BOCs, as the original BOCs were issued
          under an incorrect obligation number.

    •     The billing officer did not prepare the BOC for VAT refund until the money was
          collected.

    •     The post did not follow up with the tax authorities to identify and correct the reason for
          disallowing a portion of the VAT refund claim.

During our review of the VAT collection process we noted two instances in which the tax
authority of Tonga disallowed refunds on some of the invoices (approximately T$2,400 [$1,200
USDE]). In one instance the tax authority did not provide an explanation. Other reasons included
“un-presented invoice,” “Non CT register,” “undisclosed CT amount.” Per the administrative
assistant, the post did not have a process to follow up to determine whether the post could submit
additional support to receive the refund. Some of these errors can be avoided by adequate review
of the claim and supporting documents prior to filing the claim with tax authorities.

          We recommend:

          6. That the director of management and operations develop a process to the verify the
             accuracy and completeness of the value added tax refund application to ensure all
             submitted invoices comply with government guidelines for refunds.

          7. That the post prepare the bill of collection for value added tax refunds when the claim
             is filed with the government of Tonga.


DISBURSEMENTS

The cashier did not always identify payees’ names in FORPost for cash transactions.

OFMH section 13.14 “Documentation of Payments” states:

          All payments from the imprest fund require a valid receipt, signed by the person actually receiving the
          funds (not by the staff person who received the interim advance) or a formal receipt issued by a vendor
          (e.g., grocery receipt from a grocery store). The “Payee” to be entered into FOR Post therefore must also be
          the vendor, not the staff member taking the interim advance. (The exception is for “claims”, such as
          medical or taxi. For claims, the Payee is the staff member or Volunteer.)




Final Audit Report: Peace Corps/Tonga                                                                                6
OFMH section 13.14.3 “Multiple Payments” states:

        Posts are permitted to use multiple payment receipts where a number of Volunteers, or Trainees, or trainers
        are being paid at one time for the same purpose. A multiple payment receipt must fully describe the
        purpose of the payments, must list the individuals who are being paid, and must provide a space opposite
        each payee's name for the signature of the payee, the dollar amount, and the date the cash was received. A
        multiple payment listing should be used only when the cashier knows that all signatures of payees will be
        obtained at one time because replenishment cannot be requested until the voucher is completed or deletion
        of the names of unpaid individuals has been made.

During our review of cash disbursements we noted that for several payments amounting to
approximately $152,000 the post recorded variations of “Multiple PCV/Vendors” in the column
designated for name of the payee. These payments included the amount debited to several object
class codes, including Volunteer training, personal services contractors, living allowances,
supplies, conference costs, staff in-country travel, and other services. Approximately $60,000, or
40 percent, of such payments were made to trainees during their pre-service training period,
which qualifies for the exception as noted in OFMH section 13.14.3. However, the payments for
the remaining $92,000 should include the name of the vendor or description of the nature of
payments.

Amounts disbursed without recording the names of payees and respective invoice numbers and
dates in the financial systems can lead to improper payments and fraud. This practice does not
allow the post, agency management, or auditors to quantify amounts disbursed to specific
vendors or analyze data for duplicate or incorrect payment. Any analysis of payment would
require the retrieval of physical vouchers and the manual review of the lists of payees attached to
a lump sum payment, which is time consuming, inefficient, and error prone.

We included a similar finding in our PC/Ukraine report (IG-11-06-A) with recommendations to
the Office of the Global Accounts Payable to develop vendor tables for payees. Accordingly, we
are not issuing a separate recommendation in this report.


TRAVEL AND PURCHASE CARD PAYMENTS

The post did not have adequate review and supporting documents for purchase and travel card
transactions.

The amount of credit card payments at the post for FYs 2009, 2010, and 2011 amounted to
approximately $196,000, $215,000, and $236,000, respectively (a total of approximately
$647,000).

During our review of travel and purchase card transactions we noted the following:

    •   In June 2010, a Volunteer traveled by business class for his/her end of service flight. The
        travel card support did not include a travel authorization or approval for business class
        travel. There was a note from Air New Zealand that the economy class seats were fully
        booked; however, this does not automatically authorize the volunteer to travel by
        business class.


Final Audit Report: Peace Corps/Tonga                                                                             7
    •   In February 2010, the post hired a private cruise company to send a boat to pick up a
        group of Volunteers from Kotu and Mataku islands, as there was no regular ferry service
        available. This cost the post approximately $4,800. The relevant correspondence (e-mail,
        approval memos, etc.) with region about this matter was not retained with the payment.

It is critical to ensure that credit card transactions have adequate supporting documents.
Additionally, as the payments are processed at the post, it will not be possible to prevent
payment if any error or irregularity is noted.

Current records retention policies (Guide to Peace Corps Records [Posts]) require supporting
documents to be retained for three years from the payment date. The Guide to Peace Corps’
Records Schedules, general schedule 6.1 “The Accountable Officers’ Files,” which states:

        Original or ribbon copy of accountable officers' accounts maintained in the agency for site audit by GAO
        auditors, consisting of statements of transactions, statements of accountability, collection schedules,
        collection vouchers, disbursement schedules, disbursement vouchers, and all other schedules and vouchers
        or documents used as schedules or vouchers.... [shall be retained for] 6 years and 3 months after period
        covered by account.

As the original supporting documentation for credit card transactions is retained at post,
headquarters does not have the original supporting document for credit card transactions to meet
record retention requirements.

        We recommend:

        8. That the director of management and operations ensure that travel and purchase card
           transactions have adequate support and are legal, proper and correct.

        9. That the Peace Corps records retention officer revise guidelines for retaining support
           for credit card transactions by posts.


PERSONAL PROPERTY MANAGEMENT

The BarTracks system property records were not accurate and reliable.

During FY 2011, the agency implemented a new property management system (BarTracks). This
system has the capability to scan bar code labels affixed to property, making the annual physical
count more accurate and efficient. However, as it was a new system and this was the first attempt
by the post to use this system, we noted certain opportunities for improvement.

We reviewed the list of items physically counted and scanned in December 2011 and selected
computer sever room items as our sample. We then printed the current inventory details for the
computer and server room from the BarTracks system. When we compared the items in the
server room listed on these two reports, we noted the following:



Final Audit Report: Peace Corps/Tonga                                                                              8
    •   Twenty two uninterrupted power supply units counted during the last physical inventory
        were not listed in the current inventory report. We physically verified that the items
        included in the December 2011 physical count report were still located in the server
        room. The IT specialist could not explain why the items did not appear in the system.

    •   The report printed from the BarTracks system included several items listed twice with
        different bar code numbers. For example, the same server was listed twice.

In addition, during our physical count of other assets we noted one split-unit air conditioner in
the office did not have a barcode label. As we did not perform a complete physical count, we do
not know the extent of the issues in the BarTracks system. The DMO and information
technology specialist are planning to develop a process to correct the information in the
BarTracks system.

        We recommend:

        10. That the director of management and operations and the information technology
            specialist conduct a physical count and reconcile discrepancies to ensure data in the
            BarTracks system is accurate and complete.




Final Audit Report: Peace Corps/Tonga                                                               9
                               OTHER AREAS OF CONCERN
PC/Tonga has a high cost of operations per Volunteer and has been reviewed by regional
management for consolidation and cost realignment. During our review we noted that:

    •   At the time of our visit, the post had 17 full-time staff members serving 19 Volunteers.

    •   The next input of approximately 15 trainees is expected in September 2012.

    •   The post had a total of five vehicles and one driver. Some of the local staff members used
        the vehicles to visit 11 Volunteers located on the main island. The other 8 Volunteers
        were located on other islands and could not be reached by motor vehicle.

    •   The average distance driven by each of the posts’ five vehicles was approximately 6,200
        kilometers (3,800 miles) during FY 2011.

We discussed the high cost of operations with the chief administrative officer of the IAP Region
and obtained the following information that reflects the effort to make appropriate changes to
enable the agency’s continued presence in the Pacific sub-region:

    •   To save costs and increase management effectiveness, the IAP regional director evaluated
        the feasibility of managing the operations of Tonga and Samoa from PC/Fiji. The
        evaluation projected savings of approximately $600,000 in FY 2012 and subsequent
        years.

    •   To achieve these cost savings, the IAP region obtained agency’s permission to create a
        sub-regional CD position in Fiji and then designate the director of programming and
        training as the country representative in Tonga and Samoa respectively. The country
        representative will manage the day-to-day operations at post, and supervise local staff in
        coordination with the sub-regional CD.

    •   In FY 2012 the region reduced the trainee intake levels in these three countries by
        approximately 30 percent and anticipated reducing the number of Volunteers to
        approximately 28 each in Tonga and Samoa and 38 in Fiji. Peace Corps/Tonga has
        reduced the number of staff by four in the past year.

Even with the reduced staff the current ratio of 17 staff members serving 19 Volunteers, and the
projected ratio of 17 staff members serving 28 Volunteers, will make Tonga a post in which each
staff member is supporting a very small number of Volunteers. This results in higher per-
Volunteer spending. We will continue to monitor the costs of posts in the Pacific sub-region and
actions taken by management to create cost efficiencies.




Final Audit Report: Peace Corps/Tonga                                                              10
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We identified questioned costs, during the course of the audit. They are discussed in the
accompanying audit report and noted below.



                                        Questioned Cost(s)

   Recommendation
                                                 Description                           Amount
       number
                           Lack of Controls over voided Bills of Collection for Sale
             3                                                                         $7,100
                           of Vehicle
                           Lack of Controls over voided Bills of Collection for
             3                                                                         $2,300
                           Volunteer Allowances
                           Inadequate Controls over the sale and disposal of Peace
             5                                                                         $3,000
                           Corps vehicles




Final Audit Report: Peace Corps/Tonga                                                           11
                              LIST OF RECOMMENDATIONS
We recommend:

1. That the director of management and operations review the aging of all open items in the
   “List of Items On Hand and of Transmittals in Transit” report prior to performing the
   monthly cash count and obtain explanation and support for all items remaining open for over
   30 days.

2. That the director of management and operations confirm the balance of outstanding cash
   replenishment checks in the cash reconciliation statement report by verifying that the
   physical checks are in the cashier’s safe or by obtaining confirmation from the bank to verify
   that the balance in the bank account equals the total of all in-transit items in the “List of
   Items On Hand and of Transmittals in Transit” report.

3. That prior to authorizing any voided bills of collection the director of management and
   operations obtain adequate support prior to voiding the bill of collection to verify that the
   voided bill of collection does in fact represent duplicate transactions.

4. That, as there is no U.S. Embassy in Tonga, the post follow Peace Corps policies and obtain
   permission from the Office of Management and follow the guidelines it provides to ensure
   adequate controls over the sale process.

5. That the director of management and operations ensure that only the billing officer prepare
   bills of collection and retain adequate supporting documentation.

6. That the director of management and operations develop a process to the verify the accuracy
   and completeness of the value added tax refund application to ensure all submitted invoices
   comply with government guidelines for refunds.

7. That the post prepare the bill of collection for value added tax refunds when the claim is filed
   with the government of Tonga.

8. That the director of management and operations ensure that travel and purchase card
   transactions have adequate support and are legal, proper and correct.

9. That the Peace Corps records retention officer revise guidelines for retaining support for
   credit card transactions by posts.

10. That the director of management and operations and the information technology specialist
    conduct a physical count and reconcile discrepancies to ensure data in the BarTracks system
    is accurate and complete.




Final Audit Report: Peace Corps/Tonga                                                              12
APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. Our audits are conducted in
accordance with the government auditing standards prescribed by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

The audit of Peace Corps/Tonga covered FYs 2009, 2010, 2011 and 2012 through January 31,
2012. As we noted discrepancies in the imprest fund, we reviewed sale of property and other
bills of collection transactions from FYs 2005 to 2008. While at the post, we interviewed key
staff members including the CD, the DMO, staff responsible for administrative support, and the
Peace Corps medical officer. We also interviewed Volunteers to obtain their views on the
effectiveness of the post’s administrative and financial systems in supporting them.

As part of the audit process, we briefed the CD and the DMO. At headquarters, we conducted a
general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system and verified such data
with hard-copy documents as required. While we did not test the system’s controls, we believe
the information generated by the system and used by us was sufficiently reliable for our audit
objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, federal regulations, and Peace Corps
policies and initiatives.




Final Audit Report: Peace Corps/Tonga                                                          13
APPENDIX B

                                        LIST OF ACRONYMS
 BOC                             Bill of Collection
 CD                              Country Director
 DMO                             Director of Management and Operations
 FY                              Fiscal Year
 IAP                             Inter-America Pacific Region
 MS                              Peace Corps Manual Section
 OCFO                            Office of the Chief Financial Officer
 OFMH                            Overseas Financial Management Handbook
 OIG                             Office of Inspector General
 T$                              Tongan Pa‘anga
 USDE                            U.S. Dollar Equivalent
 USDO                            U.S. Disbursing Officer
 VAT                             Value Added Tax




Final Audit Report: Peace Corps/Tonga                                     14
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Tonga           15
APPENDIX C




Final Audit Report: Peace Corps/Tonga   16
APPENDIX C




Final Audit Report: Peace Corps/Tonga   17
APPENDIX C




Final Audit Report: Peace Corps/Tonga   18
APPENDIX C




Final Audit Report: Peace Corps/Tonga   19
APPENDIX C




Final Audit Report: Peace Corps/Tonga   20
APPENDIX D

                                        OIG COMMENTS
Management concurred with all 10 recommendations. We closed 4 recommendations (numbers
2, 3, 7, and 9) based on evidence of corrective actions that address the recommendations. The
remaining 6 recommendations remain open pending a copy of documentation listed in the
agency’s response.

    •   Recommendation 1. We request a copy of the checklist where the DMO has verified the
        zero balance in the pass-through bank account.

    •   Recommendation 4. Remains open pending documentation discussed in the agency’s
        response.

    •   Recommendation 5. We request the post to formalize the billing process by adding it to
        the staff handbook.

    •   Recommendation 6. We request the post to formalize the VAT submission process by
        adding it to the staff handbook.

    •   Recommendation 8. We are reviewing the documentation presented and provide
        feedback to the post when we complete our review.

    •   Recommendation 10. Remains open pending documentation discussed in the agency’s
        response.

In their response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Tonga                                                              21
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                        Lead Auditor Hal Nanavati performed the audit of Peace
                                        Corps/Tonga.




                                        Bradley Grubb
                                        Assistant Inspector General for Audit



OIG CONTACT                             If you wish to comment on the quality or usefulness of this
                                        report to help us strengthen our product, please email Assistant
                                        Inspector General for Audit Bradley Grubb at
                                        bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Tonga                                                                 22
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                         Contact OIG

                                   Hotline:
          U.S./International:       202.692.2915
          Toll-Free (U.S. only):    800.233.5874

          Email:                    OIG@peacecorps.gov
          Web Form:                 www.peacecorps.gov/OIG/ContactUs

          Mail:                     Peace Corps Office of Inspector General
                                    P.O. Box 57129
                                    Washington, D.C. 20037-7129

                      Main Office: 202.692.2900
